Case: 20-1454

Document: 12-2

Filed: 10/01/2020

Page: 1

No. 20-1454

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KEVIN SUTHERBY,
Petitioner-Appellant,
v.
SHERMAN CAMPBELL, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

Oct 01, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: GUY, Circuit Judge.

Kevin Sutherby, a Michigan prisoner proceeding pro se, appeals the district court’s
judgment dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254.
Sutherby has filed an application for a certificate of appealability (“COA”). See Fed. R. App. P.
22(b)(1). He has also filed motions in support of his habeas claims, as well as a motion for bond
pending adjudication of his habeas proceedings.
After Sutherby’s first trial ended in a hung jury, a second jury convicted Sutherby in 2009
of first-degree criminal sexual conduct involving a victim under the age of thirteen, in violation of
Michigan Compiled Laws § 750.520b(2)(b). The trial court sentenced Sutherby to twenty-five to
fifty years in prison and the Michigan Court of Appeals affirmed his conviction on direct appeal.
People v. Sutherby, No. 293826, 2010 WL 5383353, at *6 (Mich. Ct. App. Dec. 28, 2010) (per
curiam). Sutherby did not seek review from the Michigan Supreme Court.
In October 2012, Sutherby filed a motion for a new trial based on newly discovered
evidence, namely that the washing machine that the victim said she had used to wash the bloody
“bed sheets upon which [the] attack was to have occurred” was broken during that time period.
He also argued, among other things, that had trial counsel conducted a proper investigation, he

Case: 20-1454

Document: 12-2

Filed:-10/01/2020

Page: 2

No. 20-1454
-2would have discovered this information about the washing machine and used that information to
undermine the victim’s credibility af-trial. The trial court summarily denied the motion for a new
trial in November 2012, and Sutherby did not appeal.
In May 2016, Sutherby filed a motion for relief from judgment, in which he argued that
trial counsel rendered ineffective assistance by not undermining the victim’s credibility with
evidence of the broken washing machine.

He also argued that appellate counsel rendered

ineffective assistance by neither raising the issue of trial counsel’s ineffectiveness on direct appeal,
nor appealing the Michigan Court of Appeals’ December 28, 2010, decision to the Michigan
Supreme Court. The trial court denied Sutherby’s motion, and the Michigan Court of Appeals and
Michigan Supreme Court both denied Sutherby leave to appeal. People v. Sutherby, No. 334983
(Mich. Ct. App. Nov. 4, 2016); People v. Sutherby, 901 N.W.2d 594 (Mich. 2017) (mem.).
In October 2018, Sutherby, acting through counsel, filed a § 2254 petition, in which he
raised several of the claims that he had advanced on direct appeal and in his motion for relief from
judgment. The respondent moved to dismiss Sutherby’s habeas petition on the basis that it was
barred by the one-year statute of limitations contained in 28 U.S.C. § 2244(d), and that Sutherby
was not entitled to tolling of the limitations period. Sutherby responded, arguing that his habeas
petition was timely filed. He alternatively argued that he was entitled to equitable tolling of the
limitations period and that failure to consider his claims would result in a fundamental miscarriage
of justice. The district court found the respondent’s motion well-taken, dismissed Sutherby’s
habeas petition as time-barred, and declined to issue a CO A.
Sutherby now seeks a COA from this court as to each of his substantive claims. He does
not challenge the district court’s statue-of-limitations ruling. To the extent that Sutherby advances
new claims or arguments on appeal that he did not raise in the district court—such as his claim
that the prosecution violated Brady v. Maryland, 373 U.S. 83 (1963)—they are not properly before
this court. See United States v. Ellison, 462 F.3d 557, 560 (6th Cir. 2006).
A COA may be issued “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322, 336 (2003).

Case: 20-1454

Document: 12-2

Filed: 10/01/2020

Page: 3

No. 20-1454
-3 When the district court denies a habeas petition on procedural grounds, a COA should issue “when
the prisoner shows, at least, that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000).
Reasonable jurists could not debate the district court’s procedural ruling that Sutherby’s
habeas petition is time-barred. The Antiterrorism and Effective Death Penalty Act of 1996
imposes a one-year statute of limitations for filing a federal habeas corpus petition. See 28 U.S.C.
§ 2244(d)(1). Generally, the limitations period runs from “the date on which the judgment became
final by . . . the expiration of the time for seeking [direct] review.” See 28 U.S.C.
§ 2244(d)(1)(A). Here, Sutherby had fifty-six days after the Michigan Court of Appeals issued its
decision on December 28, 2010, to perfect an appeal to the Michigan Supreme Court, see Mich.
Ct. R. 7.305(C)(2), but he did not do so. Therefore, for purposes of § 2244(d)(1)(A), the Michigan
Court of Appeals’ decision became the final judgment at the expiration of that fifty-six day period,
onFebruary 22, 2011. See Gonzalez v. Thaler, 565U.S. 134, 150(2012). The one-year limitations
period commenced the following day and expired one year later, on February 23, 2012. Sutherby
did not file his habeas petition until October 2018, over six and a half years after the statute of
limitations had expired.
Sutherby argued in the district court that his habeas petition was timely filed pursuant to
28 U.S.C. § 2244(d)(1)(D) because he did not discover the factual predicate of his ineffectiveassistance-of-trial-counsel claim until his motion for a new trial was denied in November 2012.
Section 2244(d)(1)(D) provides that the one-year statute of limitations begins running on “the date
on which the factual predicate of the claim or claims presented could have been discovered through
the exercise of due diligence.” Sutherby’s ineffective-assistance-of-trial-counsel claim concerned
counsel’s failure to call certain members of his family to testify that the washing machine was not
operational on the day in question. But the record reflects that Sutherby was aware of the factual
predicate of this claim prior to his trial. Section 2244(d)(1)(D) is therefore inapplicable.

Case: 20-1454

Document: 12-2

Filed: 10/01/2020

Page: 4

No. 20-1454
-4Although 28 U.S.C. § 2244(d)(2) provides that the one-year statute of limitations is tolled
while a properly-filed petition for state collateral review is pending, the tolling provision does not
“revive” the limitations period (i.e., restart the clock); it can only serve to pause a clock that has
not yet fully run. Payton v. Brigano, 256 F.3d 405, 408 (6th Cir. 2001). Once the limitations
period is expired, collateral petitions can no longer serve to avoid the statute of limitations. Id.;
McClendon v. Sherman, 329 F.3d 490, 493 (6th Cir. 2003). Even where the post-conviction
motion raises a claim of ineffective assistance of appellate counsel, the filing of the motion for
relief from judgment does not revive the statute of limitations. See Allen v. Yukins, 366 F.3d 396,
401 (6th Cir. 2004) (citing McClendon, 329 F.3d at 490). Because the one-year limitations period
expired in February 2012, Sutherby’s collateral motions for a new trial and relief from judgment—
filed in October 2012 and May 2016, respectively—did not revive the limitations period.
Sutherby also argued that he was entitled to equitable tolling. The limitations period set
forth in § 2244(d) is subject to equitable tolling when a petitioner shows: ‘“(1) that he has been
pursuing his rights diligently, and (2) that some extraordinary circumstance stood in his way’ and
prevented timely filing.” Holland v. Florida, 560 U.S. 631, 649 (2010) (quoting Pace, 544 U.S.
at 418).

“The party seeking equitable tolling bears the burden of proving he is entitled to

it.” Robertson v. Simpson, 624 F.3d 781, 784 (6th Cir. 2010) (citing Griffin v. Rogers, 308 F.3d
647, 653 (6th Cir. 2002)).
Sutherby argued that he was entitled to equitable tolling due to ineffective assistance of
counsel. But neglect or mistake on the part of counsel is generally not a basis for equitable
tolling. See Jurado v. Burt, 337 F.3d 638, 644 (6th Cir. 2003); Elliott v. Dewitt, 10 F. App’x 311,
313 (6th Cir. 2001). Attorney error or misconduct warrants equitable tolling only in extraordinary
circumstances. Holland, 560 U.S. at 652; cf Robertson, 624 F.3d at 784. Sutherby’s assertions
of ineffective assistance are conclusory and do not set forth an extraordinary circumstance
surrounding counsel’s performance that would warrant equitable tolling. Reasonable jurists could
not debate the district court’s rejection of Sutherby’s equitable-tolling arguments.

Case: 20-1454

Document: 12-2

Filed: 10/01/2020

Page: 5

No. 20-1454
-5Finally, a petitioner can overcome a time-bar by showing “that failure to consider [his]
claims will result in a fundamental miscarriage of justice,” Coleman v. Thompson,~5Q\ UvS.--722y
750 (1991), but this requires a petitioner to make a “convincing showing” of actual innocence,
McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). To show actual innocence based upon new
evidence, a petitioner must establish that “in light of the new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a reasonable doubt.” McQuiggin, 569 U.S. at 386
(quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)).
Sutherby’s claim of actual innocence was premised on affidavits submitted by his family
members, who all attested that the washing machine was broken on the day that the victim said
that she washed the bloody sheets. Sutherby has not shown that a reasonable jury would not have
convicted him in light of this evidence, see id., especially considering the other evidence that was
presented at trial, including an audio recording of Sutherby implicitly admitting that he had
sexually penetrated the victim. See Sutherby, 2010 WL 5383353, at *2-3. Reasonable jurists
would not debate the district court’s determination that Sutherby did not make a sufficient showing
of actual innocence.
Accordingly, Sutherby’s COA application and miscellaneous motions are DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1188 Filed 10/21/19 Page 1 of 8

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
KEVIN SUTHERBY,
Case No. 2:18-cv-13097
Petitioner,
HONORABLE STEPHEN J. MURPHY, III
v.
SHERMAN CAMPBELL,1
Respondent.

OPINION AND ORDER GRANTING RESPONDENT'S MOTION
TO DISMISS f41 AND DENYING A CERTIFICATE OF APPEALABILITY
On October 3, 2018, Petitioner Kevin Sutherby filed a habeas corpus petition
under 28 U.S.C. § 2254. ECF 1. Petitioner is challenging his Wayne County conviction
for first-degree criminal sexual conduct, in violation of Mich. Comp. Laws
§ 750.520b(l)(a). Id. at 2. On May 30, 2019, Respondent filed a motion to dismiss,
arguing that the petition is untimely. ECF 4. For the following reasons, the Court
will grant Respondent's motion to dismiss.

BACKGROUND
Petitioner's conviction arose from the sexual assault of a twelve-year-old
victim, J. S., in July 2008. The assault occurred after the victim passed out after
drinking at Petitioner's bachelor party. People v. Sutherby, No. 293826, 2010 WL

i

The proper respondent in a habeas case is the state officer having custody of the
petitioner. See Rule 2, Rules Governing Section 2254 Cases. Petitioner is currently
housed at the Gus Harrison Correctional Facility. The warden of that facility is
Sherman Campbell. The Court amends the case caption to reflect Sherman Campbell
as the respondent.

1

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1189 Filed 10/21/19 Page 2 of 8

5383353, at *2 (Mich. Ct. App. Dec. 28, 2010). The victim awoke the next morning
next to Petitioner and was naked and had blood between her legs. Id. The victim could
not remember what had happened the night before, and when she confronted
Petitioner that she might be pregnant, Petitioner "implicitly admitted that he
sexually penetrated the victim by telling her that she could not be pregnant because
he had undergone a vasectomy and that he would die if the victim told her .family
what happened." Id.
Petitioner was convicted by a jury in Wayne County Circuit Court and, on
August 13, 2009, sentenced to twenty-five to fifty years' imprisonment. Id. The
Michigan Court of Appeals affirmed Petitioner's convictions. Id. Petitioner did not
seek leave to appeal to the Michigan Supreme Court. See ECF 5-24 (Affidavit of Larry
Royster, Clerk, Michigan Supreme Court).
On October 12, 2012, Petitioner filed a motion for a new trial. ECF 5-17. On
November 30, 2012, the trial court denied the motion. ECF 5-18. On May 23, 2016,
Petitioner filed a motion for relief from judgment in the trial court. ECF 5-19. On
September 7, 2016, the trial court denied the motion. ECF 5-20. The Michigan Court
of Appeals denied leave to appeal. See People v. Sutherby, No. 334983 (Mich. Ct. App.
Nov. 4, 2016). On October 3, 2017, the Michigan Supreme Court also denied leave to
appeal. See People v. Sutherby, 501 Mich. 878 (Mich. 2017).
On October 3, 2018, Petitioner filed his habeas corpus petition, through
counsel. ECF 1. On March 30, 2019, Respondent filed a motion to dismiss the petition
on the ground that it was not timely filed. ECF 4. On July 2, 2019, the Court issued

2

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1190 Filed 10/21/19 Page 3 of 8

a stipulated order extending the time for Petitioner to file a response to the motion to
dismiss to July 18, 2019. ECF 6. Petitioner did not file a response by that date.
Instead, on July 21, 2019, the Court issued a second stipulated order extending the
time to respond to August 8, 2019. ECF 7. Petitioner again failed to file a response by
the new deadline. On August 14, 2019, the Court issued a third stipulated order and
established a new response date of September 10, 2019. ECF 8. Petitioner failed to
meet that deadline, and the Court issued a fourth stipulated order extending the time
to file a response to September 24, 2019. ECF 9. Petitioner again failed to file a
response. On October 1, 2019, a week past the deadline to file, the Court received a
proposed fifth stipulated order that it did not enter. Petitioner had more than
sufficient time to respond to the motion to dismiss. He failed to do so and failed to
provide any justification for his failure to comply with the Court-mandated deadlines.
On October 8, 2019, Petitioner filed an untimely response to the motion to dismiss.2
LEGAL STANDARD
A prisoner must file a federal habeas corpus petition within one year of the
"date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review ... or the date on which the factual
predicate of the claim or claims presented could have been discovered through the
exercise of due diligence." 28 U.S.C. § 2244(d)(1)(A), (D).

2 Although the Court is under no obligation to consider Petitioner's response to the
motion to dismiss because it was filed two weeks after the Court-imposed deadline,
the Court did consider it in issuing the present order.
3

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1191 Filed 10/21/19 Page 4 of 8

Equitable tolling is available to toll a statute of limitations when '"a litigant's
failure to meet a legally-mandated deadline unavoidably arose from circumstances
beyond that litigant's control.'" Robertson v. Simpson, 624 F.3d 781, 784 (6th Cir.
2010) (citing Graham-Humphreys v. Memphis Brooks Museum of Art, Inc., 209 F.3d
552, 560-61 (6th Cir. 2000)). In the habeas context, to be entitled to equitable tolling,
a petitioner must show '"(1) that he has been pursuing his rights diligently, and (2)
that some extraordinary circumstance stood in his way' and prevented timely filing."
Lawrence v. Florida, 549 U.S. 327, 336 (2007) (citing Pace u. DiGuglielmo, 544 U.S.
408, 418 (2005)). A claim of actual innocence may also justify equitable tolling in
certain circumstances. Souter v. Jones, 395 F.3d 577, 588 (6th Cir. 2005). A petitioner
bears the burden of showing that he is entitled to equitable tolling. Robertson, 624
F.3d at 784.
DISCUSSION
Respondent argues that the petition is time-barred by the one-year statute of
limitations period under 28 U.S.C. § 2244(d)(1). Petitioner appealed his conviction to
the Michigan Court of Appeals, but not to the Michigan Supreme Court. See ECF
5-24. A defendant has fifty-six days from the date of the Michigan Court of Appeals'
decision to file a delayed application for leave to appeal to the Michigan Supreme
Court. Michigan Court Rule 7.302(C)(3). The Michigan Court of Appeals affirmed
Petitioner's conviction on December 28, 2010. See Sutherby, 2010 WL 5383353, at *2.
Petitioner's conviction became final when the time for seeking review to the Michigan
Supreme Court expired—February 22, 2011. See Gonzalez u. Thaler, 565 U.S. 134,

4

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1192 Filed 10/21/19 Page 5 of 8

150 (2012). The one-year limitations period commenced the following day, on
February 23, 2011, and expired one year later on February 23, 2012.
Petitioner argues that the limitations period did not commence until November
30, 2012, when the trial court denied his motion for new trial, because it was not until
that point in time that he discovered the factual predicate for his ineffective
assistance of counsel claim. ECF 10, PgID 1172. Petitioner's ineffective assistance of
counsel claim concerns defense counsel's failure to call three witnesses—Petitioner's
father and two brothers—to testify at trial. ECF 1, PgID 16. Petitioner alleges that
these witnesses would have impeached the victim's credibility. ECF 10, PgID 1171.
The victim testified at trial that when she awakened naked beside Petitioner,
she noticed blood stains on the sheets. ECF 1, PgID 9. She testified that she placed
the sheets in the washing machine and started the machine. Id. Petitioner argues
that counsel was ineffective in failing to call his father and brothers to testify that
the washing machine was broken at that time. Id. at 16. The claim that the washing
machine was broken was known to Petitioner at the time of trial. In fact, he claims
repeatedly that defense counsel was ineffective because Petitioner told counsel about
the broken washing machine prior to trial yet counsel failed to call his proposed
witnesses. Id.) ECF 5-17, PgID 900; ECF 5-19, PgID 922. And the affidavit of one of
his brothers was executed on August 8, 2011, more than a year before Petitioner filed
a motion for a new trial. See ECF 5-17, PgID 906. The factual predicate for
Petitioner's claim was clearly known before trial, and § 2244(d)(1)(D) therefore does
not apply.

5

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1193 Filed 10/21/19 Page 6 of 8

And Petitioner's motion for a new trial—filed on October 12, 2012—did not
statutorily toll the limitations period because it was filed over seven months after the
limitations period expired. The filing of a collateral petition after the limitations
period expires does not restart the limitations period. Vroman u. Brigano, 346 F.3d
598, 602 (6th Cir. 2003) (holding that the filing of a motion for collateral review in
state court serves to "pause" the clock, not restart it). Absent equitable tolling, the
petition is therefore time barred.
Petitioner failed to meet his burden to show that he is entitled to equitable
tolling. First, Petitioner did not pursue his rights diligently. See Keeling v. Warden,
Lebanon Corr. Inst., 673 F.3d 452, 463 (6th Cir. 2012) ("this Court has never granted
equitable tolling to a petitioner who sat on his rights for a year and a half') (citing
Robinson v. Easterling, 424 F. App'x 439, 443 (6th Cir. 2011)). Petitioner waited over
seven months after the limitations period expired to file a motion for a new trial. After
the motion was denied, Petitioner then waited over three years before taking further
action to challenge his conviction. His state collateral review proceedings concluded
on October 3, 2017, and yet he waited another year to file the present habeas petition.
The many and lengthy delays evidence an absence of diligence.
Second, even if Petitioner had diligently pursued his rights, no extraordinary
circumstance prevented Petitioner from timely filing a petition. Petitioner argues
that he failed to timely file his habeas because his counsel was ineffective. ECF 10,
PgID 1175-77. He does not, however, even attempt to explain how his prior counsel's

6

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1194 Filed 10/21/19 Page 7 of 8

representation—that ended in 2016—prevented him from filing a habeas petition
until 2018.
Finally, Petitioner fails to present a credible claim of actual innocence. A valid
claim of actual innocence requires a petitioner "to support his allegations of
constitutional error with new reliable evidence—whether it be exculpatory scientific
evidence, trustworthy eyewitness account, or critical physical evidence—that was not
presented at trial." Schlup v. Delo, 513 U.S. 298, 324 (1995). Petitioner states that he
has affidavits from his father and two brothers that, had they been called to testify
at trial, "their testimony would have so undermined the credibility of the complainant
as to make it impossible for the jury to find him guilty beyond a reasonable doubt,
and he would necessarily have been acquitted." ECF 10, PgID 1177. But the affidavits
are not sufficient to meet the burden "that it is more likely than not that no
reasonable juror would have convicted him in light of the new evidence." Schlup, 513
U.S. at 327. And the affidavits are not new evidence—the affiants were available to
testify as to the alleged information at trial and Petitioner attached their affidavits
to his motion for a new trial. ECF 4, PgID 60. Equitable tolling is therefore
unwarranted. The Court will grant Respondent's motion to dismiss and dismiss the
petition for habeas corpus.
ORDER
WHEREFORE, it is hereby ORDERED that Respondent's motion to dismiss
[4] is GRANTED.

7

Case 2:18-cv-13097-SJM-PTM ECF No. 12, PagelD.1195 Filed 10/21/19 Page 8 of 8

IT IS FURTHER ORDERED that Petitioner's habeas corpus petition [1] is
DISMISSED.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED
because reasonable jurists could not find the Court's procedural ruling that the
petition is untimely debatable. See 28 U.S.C. § 2253(c)(1)(a), (2); Fed. R. App. P. 22(b).
SO ORDERED.

si Stephen J. Murphy. Ill
STEPHEN J. MURPHY, III
United States District Judge
Dated: October 21, 2019
I hereby certify that a copy of the foregoing document was served upon the parties
and/or counsel of record on October 21, 2019, by electronic and/or ordinary mail.
s/ Kristen MacKav______
Case Manager Generalist

8

No. 20-1454

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
KEVIN SUTHERBY,
Petitioner-Appellant,
v.
SHERMAN CAMPBELL, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Dec 14, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SILER, CLAY, and THAPAR, Circuit Judges.

Kevin Sutherby, a Michigan prisoner proceeding pro se, petitions for panel rehearing of
this court’s order of October 1, 2020, denying his application for a certificate of appealability.
Sutherby’s application for a certificate of appealability arose from the district court’s judgment
denying his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. We have reviewed
the petition and conclude that this court did not overlook or misapprehend any point of law or fact
in Sutherby’s application for a certificate of appealability. See Fed. R. App. P. 40(a)(2).
Accordingly, we DENY the petition for panel rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

RECEIVED
JAN I 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

*1

/

•M

ji

y-

